No. 19-631
IN THE

$Upreme <!Court of tbe Wniteb $tates
WILLIAM P. BARR, ATTORNEY GENERAL; FEDERAL
COMMUNICATIONS COMMISSION,

Petitioners,

V.

AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS,
INC., ET AL.,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that three copies of the Brief
for Amicus Curiae Chamber of Commerce of the United States of America in Support
of Respondents in Barr v. American Association of Political Consultants, No. 19-631,
were served via overnight mail on all parties required:

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Roman Martinez
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Counsel for Petitioners

Counsel for Respondents

Noel J. Francisco
SOLICITOR GENERAL

I declare under penalty of perjury that the foregoing is true and correct.

Date: April 1, 2020

